                                                            Issue Date
                                                                     July 31, 2008
                                                            Audit Report Number
                                                                     2008-FW-1011




TO:         Patricia A. Knight
            Director, Recovery and Prevention Corps, PQCC


FROM:       Gerald R. Kirkland
            Regional Inspector General for Audit, Fort Worth Region, 6AGA

SUBJECT: The Dallas Housing Authority, Dallas, Texas, Mismanaged Its Housing
         Choice Voucher Program

                                 HIGHLIGHTS

 What We Audited and Why

             As part of our strategic plan objective to assist the U. S. Department of
             Housing and Urban Development’s (HUD) efforts to reduce rental
             assistance overpayments, we audited the Dallas Housing Authority’s
             (Authority) Housing Choice Voucher program (voucher program). Our
             objective was to determine whether the Authority properly administered
             its overall voucher program.


 What We Found

             The Authority acknowledged its longstanding weaknesses, as previously
             reported by the Office of Inspector General (OIG), HUD, and prior
             independent public accountants, and made a commitment to improve its
             operations. Although the Authority reorganized its leased housing
             department and made other changes, it failed to correct systemic
             weaknesses and continued to mismanage its voucher program. Further,
             analysis of Authority data disclosed that it spent almost $20 million in
             questionable costs in 2006 and 2007. This amount included payments for
             clients that it did not report to HUD; payments for clients after they left its
                 voucher program; duplicate payments to landlords; and payments for
                 clients who, based on their reported Social Security numbers, were
                 deceased. In addition, the Authority’s data showed that it backdated 22
                 and 45 percent of the examinations it reported to HUD in 2006 and 2007,
                 respectively.


    What We Recommend


                 We recommend that the Director of HUD’s Recovery and Prevention
                 Corps1 (Director) require the Authority to establish and implement:
                 policies and procedures to address its systemic weaknesses, an effective
                 quality control process, and an effective accountability process. We also
                 recommend that the Director require the Authority to support or repay
                 nearly $20 million. In addition, we recommend that the Director
                 incorporate the recommendations in this report with the management
                 decision and corrective actions for recommendation 1D of OIG audit
                 report 2008-FW-1006.

                 For each recommendation without a management decision, please respond
                 and provide status reports in accordance with HUD Handbook 2000.06,
                 REV-3. Please furnish us copies of any correspondence or directives
                 issued because of the audit.

    Auditee’s Response


                 We provided a draft report to the Authority on June 24, 2008, with
                 comments due by July 14, 2008. We held an exit conference on July 9,
                 2008. On July 10, 2008, the Authority requested an extension to respond
                 by July 21, 2008. In its July 21, 2008 response, the Authority stated it
                 believed its leased housing department had been in transition and was
                 steadily making progress. It generally agreed with our recommendations.
                 The Authority’s response along with our evaluation is included in
                 appendix B of this report.




1
     As of April 2008, HUD’s Recovery and Prevention Corps assumed responsibility for servicing the
     Authority.


                                                   2
                      TABLE OF CONTENTS


Background and Objectives                                                      4

Results of Audit
      Finding 1: The Authority Mismanaged Its Voucher Program                  5
      Finding 2: The Authority’s Mismanagement Caused Nearly $20 Million in   17
                 Questionable Costs

Scope and Methodology                                                         24

Internal Controls                                                             26

Followup on Prior Audits                                                      28

Appendixes
   A. Schedule of Questioned Costs and Funds to Be Put to Better Use          29
   B. Auditee Comments and OIG’s Evaluation                                   30




                                      3
                   BACKGROUND AND OBJECTIVES

In 1938, the Dallas City Council established the Dallas Housing Authority (Authority) to
provide housing to low-income persons. A five-member board of commissioners
(board)2 governs the Authority. The board appoints a president and chief executive
officer to administer the operations of the Authority. The Authority’s main office is
located at 3939 North Hampton Road, Dallas, Texas 75212.

The Authority administers the U.S. Department of Housing and Urban Development’s
(HUD) Housing Choice Voucher program (voucher program). Under the voucher
program, HUD pays rental subsidies so that eligible families can afford decent, safe, and
sanitary housing. The Authority administers more than 17,000 vouchers annually
pursuant to an annual contributions contract with HUD. In 2006 and 2007, HUD
provided the Authority with almost $279 million in funds for housing assistance
payments for its voucher program. HUD also provided the Authority nearly $19 million
during the period to administer the voucher program.

This is the third and final report on the Authority’s voucher program. The first audit
focused on the portability features of the Authority’s voucher program.3 We reported that
the Authority mismanaged its portable vouchers; collected $3.7 million from HUD based
on inaccurate, unreliable, and altered records; and violated HUD requirements. The
second audit concluded that Authority management failed to implement internal controls
over the financial management of its voucher program4 and did not exercise sound
management practices. As a result, the Authority had unreliable financial data and
incorrect fund balances and could not assure HUD that it spent program funds in
accordance with requirements. Also, the Authority certified to HUD that it expended
about $32 million less in program funds than it received in 2005 and 2006.

Our objective for this audit was to determine whether the Authority properly
administered its overall voucher program.




2
    The mayor of Dallas appoints board members.
3
    Audit report number 2008-FW-1003, entitled “The Dallas Housing Authority, Dallas, Texas,
    Mismanaged Its Portable Vouchers,” issued December 5, 2007.
4
    Audit report number 2008-FW-1006, entitled “The Dallas Housing Authority, Dallas, Texas,
    Management Failed to Implement Internal Controls over Its Housing Choice Voucher Program,”
    issued March 20, 2008.


                                                 4
                                  RESULTS OF AUDIT

Finding 1: The Authority Mismanaged Its Voucher Program
The Authority established a cumbersome and ineffective process to administer and
operate its voucher program. Although it reorganized its leased housing department and
made other changes, it failed to correct systemic weaknesses. For example, the Authority
continued to operate in a paper-intensive environment and used methods incompatible
with HUD’s reporting requirements. Further, Authority management failed to instill
accountability and provide employees with the tools necessary to operate an effective and
efficient voucher program. The Authority’s lack of controls resulted in unacceptable
error rates and did not ensure the detection and resolution of errors. Because the
Authority established a system that was devoid of accountability and inadequately
equipped its employees, its records were in disarray, and it effectively encouraged
employees to circumvent requirements. The Authority must implement effective policies
and procedures to ensure that it administers its voucher program efficiently and in
compliance with requirements, thereby assuring that it will better administer its
approximately $133 million annual voucher program.



    The Authority Established a
    Cumbersome and Ineffective
    Process


                  Authority management established a cumbersome and paper-intensive
                  process for obtaining and reporting family information to HUD. The
                  process failed to provide efficient and effective administration of its
                  voucher program. For example, rather than using the HUD-mandated
                  format to collect information about families,5 the Authority used its own
                  method, which differed materially from the required format. Further,
                  Authority management revoked case managers’ data entry privileges,
                  requiring them to use an unproductive and redundant manual process to
                  calculate family income, rent, and assistance payment amounts.6 This
                  process directly increased the likelihood and occurrence of errors.

                  Authority management assigned its case managers an excessive caseload
                  without regard to effective case management or providing the necessary
                  tools to operate an adequate voucher program. Generally, case managers
5
     Form HUD-50058, Family Report.
6
     While the Authority’s case managers had insufficient access to its computer system for voucher
     processing, other employees had full and free access to make unsupervised changes to its financial
     systems.


                                                     5
                 serviced 750 to 800 clients each,7 versus a typical caseload of 300 to 350
                 at other housing authorities. Further, although the case managers should
                 have been the Authority’s program experts and the best equipped to gather
                 relevant family information to report to HUD, Authority management
                 stripped them of accountability and responsibility by fragmenting the
                 voucher administration process. Those employees who should have had
                 program knowledge were not responsible for the actions that were
                 ultimately reported to HUD. Rather, employees who had limited program
                 knowledge performed these tasks and sometimes incorrectly revised the
                 information they entered. Although the Authority used its fragmented
                 approach to justify higher caseloads, it did not result in a functional
                 operation.

                 The Authority Operated in a Paper-Intensive Environment

                 The Authority’s manual process required its case managers to print an
                 internally created document, cross out prior information, hand-write
                 changes to the family information, and manually record any new
                 calculations, such as adjusted family income or a new housing assistance
                 payment amount. The Authority did not have written guidance covering
                 its process. However, based on interviews with Authority staff and
                 reviews of client files, the process included

                         Routing the internal document to information services data entry
                          clerks for input into the Authority’s computer system.
                         Routing the internal document to finance data entry clerks if the
                          action required a change in payments to landlords or clients.
                         Either routing the internal document to the file room, sometimes
                          taking months to make it into client files, or back to case managers
                          for review.
                         Hand-writing or photocopying duplicate copies of the internal
                          document, which were sent to various staff throughout the leased
                          housing department. As a result, staff sometimes failed to process
                          the documents or processed them multiple times (see finding 2).
                         Circulating the document among staff for discussion and resolution
                          if information on the internal document was unclear, causing
                          unnecessary delays.

                 As described above, the Authority’s manual process included multiple
                 staff handling documents multiple times, which fragmented responsibility
                 for the actions. Management was responsible for establishing an internal
                 control environment that ensured effective accomplishment of goals and
                 that held staff accountable. An effective system should minimize the
                 handling of documents to lessen redundancy, improve efficiency, and

7
    Although individual caseloads varied, this equates to about two and one-half to three hours per client
    annually. This amount of time appeared insufficient for case managers to complete required tasks.


                                                     6
           assign accountability. Management failed to implement an effective
           system.

The Authority Used an
Incompatible Reporting
Method


           The Authority used an internal document incompatible with HUD’s
           required reporting form that HUD uses to manage the voucher program.
           As shown in table 1, even the most commonly-used codes were
           incompatible.

                                                                          Codes on the
              Relationship and                                             Authority’s
              action type codes        Form HUD-50058 codes               internal form
                      H            Head                              Granddaughter
                      S            Spouse                            Other relation
                      K            Co-head                           Niece
                      F            Foster child/foster adult         Daughter
                      Y            Other youth under 18              Uncle
                      E            Full-time student 18+             Son
                      L            Live-in aide                      Brother
                      A            Other adult                       Head of household
                      0            None                              New application
                      1            New admission                     New move-in
                      2            Annual reexamination              Interim exam
                      3            Interim reexamination             Annual reexam
                      4            Portability move-in               Special
                      5            Portability move-out              Section 8 relocation
                      6            End participation                 Contract renegotiation
           Table 1: HUD required the Authority to categorize the relation or role of each
           household member using eight codes, while the Authority’s internal form allowed
           selection from 21 codes. HUD required reporting of the family’s type of action
           using 15 codes, while the Authority’s internal form only allowed selection from
           seven codes.

           To compensate for deviating from HUD requirements, the Authority
           programmed its computer system to convert its internal document into
           codes that HUD’s system would accept. These incompatible codes had
           been ingrained in the Authority’s processes for years. This practice could
           cause confusion and errors if the Authority implements a process that
           complies with HUD requirements.




                                           7
    The Authority Reorganized and
    Adopted an “Establishment of
    Standards Policy”


                  In December 2007, the Authority reorganized its leased housing
                  department by merging its fragmented functions from three departments
                  into one.8 Although the Authority changed the physical location of
                  employees and reassigned some managers, the changes did not address its
                  systemic weaknesses. After its reorganization, the leased housing
                  department continued to operate in an inefficient, ineffective, manually
                  driven, and paper intensive environment. The Authority must begin to
                  properly process its vouchers and implement an effective quality control
                  process that includes a mechanism for evaluating the accuracy of the
                  information it reports to HUD.

                  In response to prior OIG audits, the Authority acknowledged that it did not
                  properly administer its voucher program and reported that on September
                  20, 2007, its board adopted an “establishment of standards policy.” Since
                  then, the Authority has approved or distributed various policies and
                  procedures relevant to the voucher program as shown in table 2.

                                                                                Board
                                                                                           Distribution
                                             Title                            approval
                                                                                      9        date
                                                                                date
                   Administration Plan for the Section 8 Housing Choice      Nov. 20, 2007 Feb. 11, 2008
                   Voucher
                   Housing Choice Voucher Portability Procedure                          Mar. 4, 2008
                   Disaster Housing Assistance Payment (DHAP)             Sept. 20, 2007 Oct. 2, 2007
                   Operating Plan
                   Verification Procedures and Documents for all Assisted                Oct. 2, 2007
                   Housing Programs Administered and/or Managed by the
                   Housing Authority of the City of Dallas and the Dallas
                   Housing Authority
                  Table 2: Policies and procedures distributed after September 20, 2007.

                  The Authority’s verification procedure was meant to provide guidance to
                  Authority employees in collecting and verifying the necessary
                  documentation during the application, eligibility, admission, interim, and
                  annual reexamination processes. The guidance, which was comprised of
                  more than 100 pages including 33 exhibits, was ineffective because it did
                  not have a table of contents or index. The Authority should ensure that the


8
     As reported in audit report number 2008-FW-1003, employees in the Authority’s leased housing,
     finance, and information services departments each had roles in processing vouchers, and they all
     reported to different managers.
9
     The Authority only required policies to be presented to its board of commissioners for approval.
     Procedures could be approved by its compliance department.


                                                     8
                    guidance it provides to its employees is organized and clear and can easily
                    be used as reference material.

     Statistical Sampling Confirmed
     Continuing Need to Address
     Systemic Weaknesses


                    The Authority acknowledged its longstanding weaknesses and made a
                    commitment to improve its operations. In late 2007, it adopted some new
                    policies and procedures. This audit was designed to evaluate the
                    effectiveness of the Authority’s new policies and procedures and assess its
                    current conditions. We reviewed basic attributes for a statistical sample of
                    18 reexaminations effective between December 2007 and March 2008 (see
                    Scope and Methodology). Table 3 summarizes the sample results.

                                                                                                Projected
                                                                                   Sample       error rate
                                                                                    error        at 90%
                                   Attribute test                    Yes     No      rate      confidence10
                    Identity/eligibility documented for each         13       5       28%            14%
                    family member?
                    Verification of income documented?                 3      15      83%              67%
                    Income correctly calculated?                       4      14      78%              60%
                    Disability and dependent allowances               14      4                        10%
                    appropriate?
                    Voucher size appropriate based on                 15       3      17%               6%
                    family composition?
                    Correct payment standard used?                    15       3      17%               6%
                    Correct utility allowance used?                   12       6      33%              19%
                    Rent to owner supported/reasonable?               12       6      33%              19%
                    Application of lower of payment                   18       0        0%              0%
                    standard or gross rent correct?
                    All income and rent calculations                  3       15      83%              67%
                    accurate?
                    Housing assistance payment to owner               12       6      33%              19%
                    and/or utility reimbursement match
                    sample amount?
                    Table 3: The audit universe failed the attribute test if an error was found.
                    However, by continuing to test the sample until all selected items were reviewed,
                    auditors could estimate the actual error rate and its precision.


10
       While the actual sample error rate is the best estimate, the projected error rate is the minimum error
       rate one can expect to find in the population.



                                                        9
Systemic Weaknesses Still Existed

The Authority showed some improvement over previous reports by HUD and
its compliance department in the following areas:

          Assigning the appropriate bedroom size,
          Using the correct payment standard, and
          Correctly applying the lower of the payment standard or the gross
           rent.

Although it showed modest improvement, the sample evaluation demonstrated
the Authority had not made sufficient progress toward improving its
operations and its new procedures were largely unimplemented. The
Authority failed 10 of the 11 attributes tested with 17 of the 18 sampled files
failing at least two attributes. The sample results demonstrated continued
poor compliance with basic program regulations. Some of the errors
identified in the sample included

      The Authority’s case managers did not consistently follow HUD’s
       verification of income hierarchy recommendations and did not
       document the files showing how they resolved income discrepancies.
       The following are examples of the lack of action:

           o In 2 of 18 statistically selected files, clients reported that they
             had no income, apparently to avoid paying their portion of rent.
             While the case managers included income identified in HUD’s
             income verification system in the rent calculation, they did not
             properly document the client files or properly address the
             client’s failure to report income. The Authority required case
             managers to take steps to terminate the client from the program
             for failing to report income. For these two clients (11 percent
             of the sample), the case managers disregarded the Authority’s
             policy.

           o On May 14, 2007, a client reported that she was laid off from
             work on May 4, 2007; thus, the Authority recalculated and
             reduced her rent. However, the client started another job at a
             higher rate of pay on June l, 2007. The client did not report the
             new employment or income to the Authority within 30 days as
             required. At her annual reexamination appointment on
             November 13, 2007, the client reported the information, but the
             case manager did not address the client’s failure to do so in a
             timely manner or require the client to repay the Authority. As
             a result, the Authority allowed the client to pay less rent than
             required while it paid the difference.




                                10
                          o A client did not report income on the Authority-required
                            personal declarations questionnaire, dated November 20, 2007.
                            However, HUD’s income verification system showed that the
                            client had income from three employers. A third-party
                            verification provided by one employer showed that the client’s
                            employment ended on August 1, 2007. However, HUD’s
                            income verification system showed that the client started other
                            jobs on May 11 and June 11, 2007. While the Authority
                            completed a request for information related to unemployment
                            benefits, there was no evidence that the Authority sent the
                            request or that it received a response. There was no evidence
                            that the case manager performed further inquiries regarding the
                            two other jobs.

                     In three instances, case managers did not consider the clients’ medical
                      expenses or disabilities although the client files contained information
                      indicating that they should. In these cases, the case managers did not
                      grant the allowance or deduction; thus, the clients paid excess monthly
                      rent amounts.

                     In its response to HUD’s September 2006 Rental Integrity Monitoring
                      review, the Authority pledged to follow a specific procedure it
                      designed to ensure that it properly calculated utility allowances.
                      Although the Authority correctly calculated 12 of 18 utility
                      allowances, it did not follow its established, yet unnecessary,
                      procedure for any of them.

                     Case managers acknowledged that essential tasks went undone and
                      generally claimed they did not have time to complete the work because
                      of their large caseloads. They reported client file maintenance, interim
                      reexaminations, and client followup as the tasks most overlooked. For
                      example, on May 13, 2008, a client visited the Authority to complain
                      about his situation and a lack of customer service. The client also met
                      with auditors and explained that the Authority had stopped paying
                      housing assistance for his family11 and provided no explanation to him
                      or his landlord. The client was disabled and faced eviction without
                      understanding why the Authority had made such a decision. The client
                      reported several unreturned phone calls to his case manager. In
                      addition, the Authority failed to respond to several attempts from
                      auditors to get an update on the client’s situation.



11
     The Authority issued the six-member family a two-bedroom voucher instead of the required three-
     bedroom voucher and paid the reduced housing assistance. It also appeared that the Authority
     disregarded essential family information in making its decision to reduce the family’s housing
     assistance.


                                                   11
The Authority claimed that its manual process was a form of effective
quality control. However, separating data entry from decision making and
requiring re-performance of the related calculations on the Authority’s
internal form did not disclose case manager errors identified in the sample.
An effective quality control program should include review of the actual
work in comparison to established standards.

The Authority Did Not Properly Maintain Client Files

The Authority’s system for maintaining client files was disorganized and
unmanaged. Client files should aide case managers in processing
vouchers, serving as a repository for essential family information. The
Authority’s client files hindered the process because they were in disarray.
Staff routinely put loose documents haphazardly into the client files
without regard to date, duplication of documents, assurance that related
documents stayed together, and whether the files had become
unmanageable due to the volume of documents. Further, staff did not
always file documents in a timely manner. As a result, the Authority
experienced difficulty in locating documents that should have been in
client files. The review of the 18 client files found that

   More than 14 months after the Authority reported implementing a
    standardized filing system, none of the 18 statistically selected files
    met the Authority’s standard. Further, there was no evidence that the
    Authority had reviewed the process to ensure that the standards had
    been implemented as intended.

   Rather than ensuring that they filed current documents together, staff
    routinely separated and haphazardly put them among documents that
    were several years old.

   Case managers often kept documents at their desks rather than having
    them placed in the client files. One case manager reported keeping
    documents for up to three months. Another case manager reported
    seeing 20 to 25 clients per day. Collecting documents from that many
    clients without an effective process for ensuring that it properly filed
    them contributed to the Authority’s inefficient and ineffective
    operations.

   Some client files did not contain essential documents while some files
    contained duplicate documents. For example, one file had only a
    driver’s license as identification, while other files had multiple copies
    of the same birth certificates and Social Security cards. In one
    instance, the file contained birth certificates for a different family.




                              12
                      In many instances, client files contained original landlord
                       vendor-number requests that should have been in landlord files, not
                       client files. The Authority also acknowledged that it had duplicate
                       landlord files. These errors may have contributed to the Internal
                       Revenue Service (IRS) rejecting 784 Forms 1099-Miscellaneous12 due
                       to mismatched Social Security/taxpayer identification numbers. As in
                       many previous instances, Authority managers from different
                       departments claimed that other departments were responsible for
                       correcting the errors. However, the Authority was unable to provide
                       documentation showing that it corrected the errors or that it correctly
                       reported the information to the IRS.

                  All of the case managers interviewed acknowledged that the sampled
                  client files fairly represented the conditions and agreed they were poorly
                  maintained. However, they blamed their workload and other staff for the
                  poor condition of the files. Authority management must accept
                  responsibility for its client files and develop a filing system to ensure that
                  client information is well maintained and organized in a logical manner
                  that permits ready access to information and lends itself to review and
                  verification.

     The Authority Did Not Provide
     Case Managers with Necessary
     Tools


                  The Authority expected case mangers to manage extremely high caseloads
                  in a manual environment, with poorly maintained client files, while they
                  did not have responsibility for the information ultimately reported to
                  HUD. Further, until recently, Authority management discouraged case
                  managers from having client files with them when they interviewed
                  clients, which led to duplication, errors, omissions, and a lack of
                  accountability. If the case managers had the client files at the time of the
                  interviews, they could file documents as they collected them. Further, if
                  the client files were conducive to routine review, case managers would
                  know in advance what decision-impacting information was already
                  available and could avoid having clients continually provide documents
                  already in the files.

                  All of the case managers interviewed complained of being overwhelmed
                  by their workload. They also expressed concern over the amount of staff
                  turnover, which often led to increases in their already unmanageable
                  caseloads. Instead of providing manageable caseloads that included
                  complete responsibility for voucher processing and insisting on

12
      The Authority had to report annual landlord payments of $600 or more to the IRS using Form 1099-
      Miscellaneous.


                                                   13
                   accountability, the Authority burdened its case managers with unnecessary
                   and unproductive manual processes. The Authority’s ineffective systems,
                   which contained duplicative efforts, led to sloppiness, lacked
                   accountability, exacerbated the conditions, and reduced effectiveness and
                   efficiency.

     The Authority Recently Hired
     New Program Managers

                   The Authority recently hired new managers for its leased housing
                   department, which operates the voucher program. Rather than engaging in
                   the previous Authority practices of attributing deficiencies to computer
                   systems or claiming that the deficiencies resulted because of the
                   Authority’s large voucher program, these managers seemed to recognize
                   the importance of operating of an effective and efficient program.

     The Authority Should Use Its
     Resources

                   The Authority should use its compliance department to augment its quality
                   control process. In 2006, the Authority’s compliance department
                   conducted three separate reviews of the Authority’s client files and
                   reported systemic weaknesses similar to those reported by others. Those
                   reviews disclosed error rates as high as 91 percent.13 In addition, the
                   Authority had access to HUD systems that contained useful information.
                   Had the Authority taken actions based on the findings and
                   recommendations made by its compliance department and the information
                   available in HUD systems, conditions identified by OIG and other audits
                   and reviews might have been mitigated.

                   In February 2008, the Authority’s compliance department concluded a
                   review of the Authority’s Section Eight Management Assessment Program
                   (SEMAP) submission. This effort appeared to be an earnest attempt at
                   self-assessment. It also demonstrated the potential benefit of having an
                   organizationally independent body within the Authority. However, to
                   better ensure independence from Authority management, the Authority’s
                   board should consider requiring the compliance officer to dual report
                   directly to the board and the president/chief executive officer.14




13
      HUD’s September 2006 rental integrity monitoring review reported an 89 percent error rate.
14
      The vice president of compliance reported to the Authority’s general counsel.


                                                    14
     The Authority’s Lack of
     Controls Has Been an Ongoing
     Weakness


                  The Authority was repeatedly informed of its internal control weaknesses.
                  Its independent audit reports15 for fiscal years 2004 and 2005 contained
                  the following finding:

                          “The system of internal control as designed and maintained by
                          DHA [the Authority] appears to be inadequate and not operating
                          effectively to reasonably ensure DHA’s compliance with Federal
                          laws, regulations, and program compliance requirements.”

                  In addition, the Authority received a number of reviews and
                  correspondence from HUD16 and its compliance department citing
                  systemic weaknesses related to its voucher program. Despite the
                  Authority having been informed of its lack of internal controls and
                  systemic weaknesses, management has not corrected them. This was
                  further reported in our previous reports issued in December 2007 and
                  March 2008. The Authority must address its systemic weaknesses
                  including designing and implementing an internal control process that
                  provides assurance that it processes vouchers effectively and efficiently
                  and accurately reports performance to managers and HUD. The process
                  should be written and include quality control procedures to measure
                  performance.

     Conclusion


                  The Authority failed to adequately manage its voucher program and its
                  leased housing department. As reported many times over the last six
                  years, the Authority's lack of internal controls negatively affected its
                  voucher program. Although it made modest changes, the Authority
                  continued to be unable to assure HUD that it administered its program in
                  compliance with requirements. It must address its systemic weaknesses
                  identified in this report, our two previous reports, and other reports and
                  make substantive changes to its processes to ensure that it adequately
                  administers its voucher program in accordance with HUD requirements.
                  As part of this effort, the Authority should use its available resources, such
                  as its compliance department and information available from HUD
                  systems, to improve its operations. By insisting on accountability from its
                  staff and making necessary improvements to its fragmented, inefficient,

15
      Office of Management and Budget Circular A-133 audits performed by KPMG International.
16
      Rental Integrity Monitoring reviews dated November 2002, November 2003, and September 2006.


                                                  15
                     and ineffective voucher program, the Authority would better administer
                     the $133 million that HUD provides it annually.

     Recommendations


                     We recommend that the Director of HUD’s Recovery and Prevention
                     Corps

                     1A. In addition to its actions to address recommendations in previous
                         OIG reports, require the Authority to establish and implement
                         policies and procedures to address its systemic weaknesses and
                         eliminate redundant, ineffective, and unnecessary procedures to
                         include implementing an effective quality control process.

                     1B. Require the Authority to implement an effective accountability
                         process that includes acting on reported instances of programmatic
                         noncompliance and ensuring dual reporting by the compliance
                         officer to the board and the president/chief executive officer.

                     1C. Incorporate the recommendations in this report in your proposed
                         management decision and corrective actions for Recommendation
                         1D17 of OIG audit report 2008-FW-1006.




17
      See page 28.


                                                 16
Finding 2: The Authority’s Mismanagement Caused Nearly
           $20 Million in Questionable Costs
Analysis of the Authority’s historical data showed that in 2006 and 2007 it spent more
than $11 million on behalf of 872 clients that it did not report to HUD, nearly $8 million
for 2,305 clients after it terminated them from its voucher program, more than $250,000
for 376 duplicate landlord payments, and more than $167,000 on behalf of 45 clients
whose Social Security numbers identified them as deceased. In addition, the Authority’s
data showed that it backdated 22 percent and 45 percent of the examinations it reported to
HUD in 2006 and 2007, respectively. This condition occurred because the Authority
mismanaged its voucher program by not implementing an adequate internal control
system. As a result, the Authority did not use the funds in accordance with requirements.
The Authority could better manage its voucher program if it made use of its available
resources.



     The Authority Paid $11.18
     Million for Clients It Did Not
     Report to HUD

                   Analysis of the Authority’s data showed that it paid $11.18 million in
                   housing assistance on behalf of 872 clients (about 5 percent of the clients
                   assisted) in 2006 and 2007 without reporting the family information to
                   HUD.18 HUD relies on public housing agencies to submit accurate,
                   complete, and timely data to administer, monitor, and report on the
                   management of the national voucher program. HUD also uses this
                   information to justify its budget requests to Congress. Underreporting
                   family information to HUD impacts HUD’s ability to administer the
                   voucher program at national and local levels. HUD required the Authority
                   to submit 100 percent of its family records and would subject the
                   Authority to sanctions if it failed to maintain at least a 95 percent reporting
                   rate.19

                   In addition, HUD used the family information the Authority submitted to
                   verify the Authority’s self-certification under SEMAP. If the Authority’s
                   data become insufficient to verify its certification, HUD will assign a zero
                   rating for five key areas. The Authority’s December 31, 2007 SEMAP
                   rating was 69 percent (100 out of 145 possible points) and included 30

18
       Based on the Authority’s submissions to HUD with effective dates between January 1, 2004, and
       May 3, 2008.
19
       Notices PIH (Public and Indian Housing) 2005-17, 2006-24, and 2007-29.


                                                    17
                    points for the five areas verified using data it submitted. The Authority
                    must ensure that it submits complete and accurate family information to
                    HUD as required or risk losing 30 points, which would result in HUD’s
                    designating it as a troubled housing agency.20 As reported in previous
                    OIG audits, the Authority’s internal controls were inadequate to ensure it
                    only made authorized payments. Therefore, the Authority could not
                    assure HUD these unreported payments were appropriate and eligible.
                    The Authority should review its records for the 872 unreported clients to
                    determine whether its $11.18 million in unsupported payments went to
                    qualified landlords on behalf of eligible families. It should repay HUD for
                    any ineligible amounts and submit the necessary family information to
                    HUD.

     The Authority Paid Almost $8
     Million in Assistance for Clients
     It Terminated from Its Voucher
     Program

                    The Authority’s data showed that it paid almost $8 million in assistance
                    for 2,305 clients after the termination effective dates it reported to HUD.
                    It made 17,075 ineligible or unsupported payments for terminated clients
                    in 2006 and 2007. In some cases, the Authority’s fragmented procedures
                    for processing client information may have resulted in termination
                    information not being processed; thus, payments to landlords and families
                    continued.

                    In other cases, the Authority may have legitimately backdated the
                    effective dates of the terminations based on relevant information it
                    discovered later, such as client fraud or death. In these cases, the
                    Authority should have recovered any overpayments from the landlord and
                    the family. However, it did not consistently recover overpayments. In
                    cases in which the landlord had multiple clients in the voucher program,
                    the Authority sometimes deducted overpayments from subsequent
                    landlord checks. If the landlord did not have other clients in the voucher
                    program, the Authority did not attempt to collect the overpaid amounts.
                    Because the data the Authority provided for audit did not contain reliable
                    deduction information, the data could not be tested to determine whether
                    the Authority recovered ineligible overpayments from landlords when it
                    backdated terminations.

                    The Authority should review its records to determine whether it recovered
                    the overpayments it made on behalf of clients it terminated from its

20
       If the Authority lost 30 points in its SEMAP score because it did not report all records to Multifamily
       Tenants Characteristics System (MTCS) and Public and Indian Housing Information Center (PIC), its
       score would decrease from 69 percent (standard rating) to 48 percent (troubled). (24 CFR (Code of
       Federal Regulations) 985.103).


                                                       18
                    voucher program. If not, it should recover and repay to HUD the
                    ineligible portion of almost $8 million in unsupported payments. Further,
                    it should establish and implement procedures to ensure that it processes
                    termination information for all clients who leave its voucher program and
                    to ensure that it recovers all overpayments from landlords and families.

     The Authority Paid More Than
     $250,000 in Duplicate
     Assistance


                    The Authority’s data showed that it paid duplicate assistance totaling
                    $253,833 for 59 clients. The analysis identified 376 duplicate payments,
                    some of which were ongoing, by looking for payments for more than one
                    contract number21 for the same client on the same date. Based on
                    descriptions by staff, the Authority’s internal process when a client
                    changed units involved preparing and processing two separate manual
                    forms: one to terminate the contract for the existing unit and one to begin
                    the contract for the new unit. However, as in other operational areas, the
                    Authority did not provide staff written guidance as to how to process the
                    changes. The duplicate payments likely resulted from the inadequacy and
                    fragmentation in this process that allowed the Authority to process new
                    contracts without terminating expired contracts. The Authority should
                    determine which of the duplicate payments were ineligible, recover the
                    funds from the landlords, and repay HUD accordingly.

                    On several occasions during the audit, we requested that the Authority
                    provide its most recent payment information for analysis to help it identify
                    and stop ongoing duplicate payments. The Authority was unresponsive,
                    electing not to take advantage of this opportunity to cease its ineligible
                    payments for expired contracts. To better manage its voucher program,
                    the Authority should use available information to avoid unnecessary
                    duplication of assistance.

     The Authority Paid Assistance
     for Deceased Clients


                    The Authority paid assistance for 235 clients between January 2006 and
                    December 2007 who used Social Security numbers that indicated they
                    were deceased as of April 2007.22 Because the resource used to identify

21
       The Authority identified the program and unit under contract through a housing assistance payment
       (HAP) number that was supposed to be unique to the client and unit.
22
       As discussed in the Scope and Methodology section, because its data had limited reliability related to
       client identity, the Authority will need to verify whether the clients were deceased at the time of
       payment.


                                                       19
                  the possibly deceased clients did not contain the date of death, it was not
                  feasible to determine whether the Authority made payments for the entire
                  period. However, it made 322 payments totaling $140,975 on behalf of 44
                  of the 235 possibly deceased clients after April 2007.

                  In a separate example, a family’s head of household died in March 2003.
                  The family did not inform the Authority of the death and repeatedly
                  ignored the Authority’s attempts to schedule eligibility reexaminations
                  until the Authority notified the family in May 2006 that it was terminating
                  assistance. During this time, a case manager processed an interim
                  reexamination, effective October 2003, and changed the family’s income
                  and rent amounts. There was no documentation in the file supporting that
                  the family supplied the information, suggesting that the case manager
                  processed the action without conducting the required reexamination. In
                  addition, in January 2006, the Authority fired another case manager
                  assigned to the family for falsely certifying client data.23 The client file
                  contained an income verification report printed in November 2005
                  indicating that the head of household was deceased, but the case manager
                  failed to act on the information.

                  The Authority submitted records to HUD showing that it had terminated
                  assistance for the family effective October 1, 2003. It did not explain why
                  the effective date was six months after the head of household’s death. In
                  July and August 2006, the Authority recovered a total of $33,579 in
                  overpayments to the landlord; however, the Authority’s calculation of the
                  recovered funds was incorrect. Further, on August 3, 2006, the Authority
                  paid the landlord $24,177 on behalf of the family and on September 1,
                  2006, made additional payments to the landlord and the family that it
                  could not support. The Authority’s records indicated that it made net
                  payments of $24,462 to the landlord and $1,950 to the family on behalf of
                  the deceased head of household after her death. The Authority should
                  recover and repay the $26,41224 paid on behalf of the family after the head
                  of household’s death.

                  The Authority had access to a HUD system that contained reports that
                  identified deceased clients. In addition, HUD provided multiple training
                  sessions on effective use of its system. The Authority should use this
                  management tool to monitor its program and assist it in identifying
                  deceased clients to avoid making ineligible payments.




23
     The Authority found that although the case manager indicated that she had interviewed and conducted
     annual reexaminations for 40 clients, she had not.
24
     $24,462 + $1,950 = $26,412.


                                                   20
     The Authority Backdated
     Reexaminations

                   File reviews showed backdated reexaminations

                   The review of 18 statistically selected client files showed that the
                   Authority backdated the effective dates of its annual reexaminations as
                   evidenced by the supporting documentation and processing stamps on the
                   Authority’s internal form being dated after the effective date. For example,
                   in one case, the Authority did not process the paperwork for a change with
                   an effective date of December 1, 2007, until February 19, 2008. In such
                   situations, the case managers wrote notes to the data entry clerks asking
                   that the change in subsidy amount take effect at a future date and that the
                   client not be penalized. When asked about such notes, employees
                   explained that the Authority is rated monthly on late reexaminations so
                   they had to be dated on the due date, regardless of when they were
                   processed. The Authority’s practice was to provide a 30-day notice to
                   clients if the client’s portion of the rent increased. Neither HUD nor the
                   Authority25 had a formal policy requiring a 30-day notice to the client if
                   the client’s portion of the rent increased. In cases in which the subsidy
                   increased and the client portion decreased, the Authority processed manual
                   checks to pay the back rent and reimburse the client for the period
                   between the effective date and the date the Authority completed the
                   reexamination and processed the changes.

                   Analysis revealed extent of backdated reexaminations in 2006 and 2007

                   Analysis of the Authority’s data showed that it submitted records to HUD
                   for 11,922 and 12,780 annual reexaminations with effective dates in 2006
                   and 2007, respectively. In 2006, the Authority did not pay the housing
                   assistance amount submitted to HUD on the effective date of the
                   reexamination for 22 percent of reexaminations. In 2007, the number
                   more than doubled to 45 percent of the reexaminations. The delay in
                   changing the payment amount ranged from one to 17 months. This delay
                   is a strong indication that the Authority routinely backdated its annual
                   reexaminations to conceal their lateness.

                   Backdating reexaminations was futile

                   Late reexaminations could negatively affect the Authority’s performance
                   rating. Its SEMAP score would be reduced if more than 5 percent of its
                   annual reexaminations were more than two months overdue. Since HUD
                   based timeliness on overdue reexaminations the Authority had not
                   submitted rather than the timeliness of submitted reexaminations, this
25
      The Authority’s administrative plan dated November 20, 2007, added this provision.


                                                    21
             practice would not help the Authority’s score in this area. Further, by
             engaging in these activities, the Authority reduced the amount of time
             available to conduct its annual reexaminations in a timely manner during
             the next annual reexamination cycle. For example, if the Authority
             backdated a reexamination by three months, it would only have nine
             months to perform the subsequent annual reexamination. This intensified
             the Authority’s already heavy caseload.

The Authority Experienced
Difficulty in Providing Basic
Programmatic Information

             In all three OIG audits, the Authority experienced great difficulty in
             providing basic information. In addition to the weaknesses already
             reported, the Authority could not provide sufficient evidence that it
             properly admitted clients from its waiting list. The Authority’s
             administrative plan required selection from the waiting list in
             chronological order by date and time of application. In the reports the
             Authority provided, the date and time applicants entered the waiting list
             were inconsistent from one report to the next. The Authority should
             ensure that it accurately reflects and tracks entrance and selection from its
             waiting list.

             If the Authority could not provide simple and reliable programmatic
             documentation for audit purposes, it was doubtful that it could retrieve and
             analyze it for purposes of efficiently operating its program(s). The
             Authority must use its available tools to operate its program efficiently,
             effectively, and in accordance with HUD requirements.

Conclusion


             Analysis of the Authority’s data disclosed almost $20 million in ineligible
             and unsupported payments during 2006 and 2007. Although many have
             reported on the Authority’s systemic weaknesses, its own data revealed
             these inappropriate payments that would not be identified through
             traditional means. The Authority must use the many tools it has available
             to identify and address its systemic weaknesses, including analysis of its
             own data and existing HUD reports. Unless it does so, it will continue to
             mismanage its voucher program.




                                          22
Recommendations

          We recommend that the Director of HUD’s Recovery and Prevention
          Corps

          2A. Require the Authority to establish and implement policies and
              procedures to ensure that it submits complete, accurate, and timely
              information to HUD as required. The Authority should also use the
              data and resources it has available and stop payments when
              warranted.

          2B. Require the Authority to support or repay HUD $11,181,396 in
              unsupported payments for clients it did not report to HUD.

          2C. Require the Authority to support or repay HUD $7,981,640 in
              unsupported payments for clients it terminated from its voucher
              program.

          2D. Require the Authority to support or repay HUD $253,833 in
              ineligible duplicate payments to landlords.

          2E. Require the Authority to support or repay HUD $167,387 in
              unsupported payments for possibly deceased clients.




                                     23
                     SCOPE AND METHODOLOGY

Our objective was to determine whether the Authority properly administered its overall
voucher program. To accomplish our objective, we

   •   Reviewed relevant criteria,
   •   Interviewed HUD and Authority management and staff regarding the Authority’s
       operations,
   •   Reviewed relevant Authority personnel files,
   •   Reviewed the Authority’s compliance department audit reports,
   •   Reviewed a statistical sample of client files, and
   •   Performed analytical procedures on the Authority’s data related to voucher
       payments and client eligibility reexaminations.

We conducted the audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives. Our audit generally covered the period January 2006 through March 2008.
We expanded the review period as necessary to accomplish our objective. We performed
audit fieldwork at the Authority’s administrative offices in Dallas, Texas, from
November 2007 through May 2008.

Revised Audit Approach
Our initial audit approach involved reviewing a large statistical sample of client files
supporting housing assistance payments made during calendar years 2006 and 2007.
However, HUD and other external auditors previously performed work covering that
period and identified areas of concern, which the Authority pledged to correct. Rather
than duplicate the work of others, we agreed to assess the Authority’s most recent
operations with respect to new policies and procedures for the voucher program as well
as its reorganization of staff performing data entry for the program. We revised the audit
approach to select a statistical sample of client files for review from a list of client
eligibility reexaminations with effective dates between December 1, 2007, and March 31,
2008. This approach resulted in a smaller sample of client files for review and allowed
us to assess whether the Authority’s management changes were effective. In addition, we
obtained and analyzed the Authority’s data containing voucher payment records between
January 1, 2006, and December 31, 2007, to identify additional areas of concern that
could not be identified by reviewing client files.

Statistical Sampling
We used discovery attribute sampling to identify the rate of error in the Authority’s
reexaminations with effective dates between December 1, 2007, and March 31, 2008.
Discovery sampling tests for compliance with policies, procedures, and practices of a
function to determine the adequacy of internal controls or operational efficiency. It is not


                                            24
designed to estimate questioned costs. Instead, poor compliance identified by a discovery
sample will prompt recommendations to address weaknesses in the design or
implementation of internal controls. We used EZ-Quant to calculate a sample size of 18
from the Authority’s list of 5,913 reexaminations based on a critical error rate of 10
percent and a maximum government risk of 15 percent. We randomly selected the 18
reexaminations and reviewed them for compliance with specific attributes as discussed in
finding 1. An audit universe will fail the test for an attribute if an error is found.
However, by continuing to test the sample until all selected items have been reviewed,
auditors can estimate the actual error rate and its precision. We used EZ-Quant to project
the lower limit of the pass/fail rates of the attributes tested in the sample to the overall
population of reexaminations the Authority performed during the period with a
confidence level of 90 percent. While the actual sample error rate is the best estimate, the
projected error rate is the minimum error rate one can expect to find in the population.

Data Reliability Assessments
The Authority provided two electronic files containing reproductions of its voucher
payment records for calendar years 2006 and 2007. We performed data reliability
assessments of the data files by analyzing the information and comparing the records to
the Authority’s printed check registers, its electronic bank statements, and the data it
submitted to HUD. Although we identified some missing records from the data, we
determined that the data were sufficiently reliable for the purposes of analyzing payments
made to and on behalf of clients in its voucher program. Errors related to the missing
information would result in an understatement of a problem and would not be material or
misleading.

The data files contained an unknown number of errors related to client identity.
Comparison with the Authority’s live system data showed that when the Authority
reissued a client number or contract number after a client left the program, the data files
identified the previous client rather than the client assisted at the time of the payment.
For this reason, conclusions based on analysis of client identity will require verification
by the Authority. Lastly, the data were not sufficiently reliable with respect to deduction
information because the data files did not attribute deductions from landlord payments to
the appropriate client. This condition prevented using the data to determine whether the
Authority recovered overpayments to landlords for specific clients.

We also obtained data the Authority submitted to HUD’s PIC with effective dates
between January 1, 2004, and May 8, 2008. We did not perform detailed testing on the
reliability of the PIC data. Previous OIG assessments of PIC did not identify deficiencies
that would impact the audit objectives. In addition, the Authority was directly
responsible for the accuracy of the information it submitted to PIC. Therefore, analysis
of the Authority’s payment data in comparison with what it submitted to PIC was
appropriate and would not result in misleading conclusions.




                                            25
                          INTERNAL CONTROLS

Internal control is an integral component of an organization’s management that provides
reasonable assurance that the following objectives are being achieved:

           •   Effectiveness and efficiency of operations,
           •   Reliability of financial reporting,
           •   Compliance with applicable laws and regulations, and
           •   Safeguarding resources.

Internal controls relate to management’s plans, methods, and procedures used to meet its
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the
systems for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls


               We determined the following internal controls were relevant to our audit
               objectives:

               •   Program operations – Policies and procedures that management
                   implemented to reasonably ensure that its program met its objectives.

               •   Validity and reliability of data – Policies and procedures that
                   management implemented to reasonably ensure that valid and reliable
                   data were obtained, maintained, and fairly disclosed in reports.

               •   Compliance with laws and regulations – Policies and procedures that
                   management implemented to reasonably ensure that its resource use
                   was consistent with laws and regulations.

               •   Safeguarding resources – Policies and procedures that management
                   implemented to reasonably ensure that its resources were safeguarded
                   against waste, loss, and misuse.

               We assessed the relevant controls identified above.

               A significant weakness exists if management controls do not provide
               reasonable assurance that the process for planning, organizing, directing,
               and controlling program operations will meet the organization’s
               objectives.



                                            26
Significant Weaknesses

           Based on our review, we believe the following items are significant
           weaknesses:

               •   The Authority established cumbersome, unproductive internal
                   processes and stripped its employees of responsibility.

               •   The Authority did not use available tools to operate its voucher
                   program efficiently or effectively.

               •   The Authority failed to safeguard its resources against waste, loss,
                   and misuse.

           Without these basic controls, it was unable to ensure compliance with
           HUD requirements (see findings 1 and 2).




                                        27
                    FOLLOWUP ON PRIOR AUDITS


Dallas Housing Authority,
Dallas, Texas, Mismanaged Its
Portable Vouchers
2008-FW-1003

            OIG audit report 2008-FW-1003, issued December 5, 2007, reported that
            the Authority mismanaged its portable vouchers. The report contained
            four recommendations, all of which impacted our audit objectives and
            were considered in planning this audit. We concurred with HUD’s
            management decisions on all four of the recommendations on March 25,
            2008. They remain open pending completion of corrective actions.

Dallas Housing Authority,
Dallas, Texas, Management
Failed to Implement Internal
Controls over Its Housing
Choice Voucher Program
2008-FW-1006


            OIG audit report 2008-FW-1006, issued March 20, 2008, reported that
            Authority management failed to implement internal controls over its
            voucher program. The report contained four recommendations, two of
            which impacted our audit objectives and were considered in planning this
            audit:

            1C. Require the Authority to implement adequate internal controls over
                its financial management of its voucher program. At a minimum, the
                internal controls should address the weaknesses cited in this report.

            1D. Take appropriate administrative sanctions, up to and including
                issuing a notice of default in accordance with section 15 of the
                annual contributions contract for the Rental Certificate and Rental
                Voucher programs.

            We concurred with HUD’s management decisions on recommendations
            1B and 1C on June 11, 2008; recommendation 1A on June 20, 2008; and,
            recommendation 1D on July 8, 2008. They remain open pending
            completion of corrective actions.




                                        28
                                           APPENDIXES

Appendix A

              SCHEDULE OF QUESTIONED COSTS AND
                FUNDS TO BE PUT TO BETTER USE



                     Recommendation
                         number                   Ineligible 1/          Unsupported 2/

                              2B                                             $11,181,396
                              2C                                              $7,981,640
                              2D                         $253,833
                              2E                                                 $167,387

                          TOTALS                         $253,833            $19,330,423




1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity that the
     auditor believes are not allowable by law; contract; or federal, state, or local policies or regulations.

2/   Unsupported costs are those costs charged to a HUD-financed or HUD-insured program or activity
     when we cannot determine eligibility at the time of audit. Unsupported costs require a decision by
     HUD program officials. This decision, in addition to obtaining supporting documentation, might
     involve a legal interpretation or clarification of departmental policies and procedures.




                                                       29
Appendix B

    AUDITEE COMMENTS AND OIG’S EVALUATION




Comment 1




                     30
31
32
Comment 2




            33
Comment 3




Comment 4




            34
Comment 5




Comment 6




            35
Comment 3




Comment 6




            36
Comment 6




Comment 7




            37
Comment 8




            38
39
Comment 9




Comment 6




Comment 10




Comment 11




             40
Comment 11




Comment 12



             Comment 15




                 41
Comment 13




Comment 10




             42
Comment 6




Comment 13




Comment 8




             43
44
              OIG Evaluation of Auditee Comments

Comment 1   We acknowledge that the Authority’s voucher program has been in
            transition. However, it has been in transition throughout our three
            audits. The Authority has not provided a timeline or milestones for
            completing the transition. In part, because of the assertions by the
            Authority of significant improvement, we modified our audit
            approach to focus on more current activities. For reasons detailed in
            the findings, we disagree with the Authority’s conclusion that it
            operated its voucher program in an effective manner.

            Both HUD’s MTCS and SEMAP rely upon the Authority providing
            accurate data and self-certifications. As detailed in this audit, two
            previous OIG audits, and HUD reviews, the Authority could not
            support the information it supplied. For instance, the MTCS
            reporting rate relies upon information submitted by the Authority to
            the Voucher Management System. As reported previously, the
            Authority submitted inaccurate information to the Voucher
            Management System; therefore, the accuracy of the reporting rate by
            MTCS was questionable.

            The Authority has made some strides in improving its operations.
            However, the Authority still needs to make significant improvement
            and continue to work with HUD to have an effective and efficient
            voucher program.

Comment 2   We modified the language in our conclusion. We did not audit the
            Authority’s inspection or maintenance of units nor its compliance
            with housing quality standards.

            The other accomplishments cited by the Authority in its response
            were based upon information that it provided to HUD. As stated in
            our reports and HUD reviews, the Authority did not have the controls
            and management in place to provide consistent, accurate, and reliable
            information.

Comment 3   The Authority stated it reduced the caseload for the case managers
            from approximately 750-800 cases to 500. Decreasing the work
            load of the case workers by a third might improve the effectiveness
            of the Authority’s operations. However, it did not address its
            underlying problems. The Authority did not explain how reducing
            the caseload to 500 will ensure that it will meet HUD requirements
            and effectively serve its clients in the future.




                               45
Comment 4   The Authority acknowledged that it used an incompatible reporting
            method. We maintain our position that the Authority’s process was
            well outside industry standards and contributed to an ineffective and
            inefficient administration of its voucher program.

Comment 5   Contrary to the Authority’s response, it assured us that it had started
            this reorganization in August 2007 with substantial completion by
            January 2008. At the Authority’s request, we modified our audit
            approach to focus on its activities from December 2007 through
            March 2008. The Authority agreed at the time of the audit that this
            would be a fair approach rather than us reviewing case files prior to
            August 2007 as originally planned.

            During our audit, Authority staff reported that many policies and
            procedures were in draft. We included in our report the policies and
            procedures relevant to the audit objectives and approved as of
            April 8, 2008. The Authority should continue to improve its
            operations by developing and implementing policies and procedures,
            streamlining operations, and addressing previous audits and reviews.

Comment 6   We encourage the Authority to implement, monitor, and evaluate
            policies and procedures to improve the effectiveness and efficiency of
            its operations. The Authority should ensure its systems accurately
            measure and report its performance.

Comment 7   We acknowledge steps the Authority has taken to improve its
            voucher program. However, as the evidence reviewed and analyzed
            during our audit showed, the Authority’s changes had not impacted
            its systemic weaknesses.

            Our audit work and that of others continued to identify weaknesses
            already reported by its compliance department with little or no
            evidence of correction or follow-up by management. We appreciate
            the Authority implementing the recommendation that the compliance
            officer report directly to the board.

Comment 8   The Authority’s response cites its MTCS and self-certified SEMAP
            ratings as support that it operated an effective voucher program. Our
            audit tested the underlying information and effectiveness of its
            operations. The conclusions reached were based upon the evidence
            reviewed and analyzed during the audit. While we understand the
            Authority’s need to promote a positive image, the Authority must
            not avoid or deny problems to protect its reputation.

            The Authority’s response cites significant changes to its voucher
            program over the last year and promises further significant changes.



                                46
             These changes confirm rather than contradict the conclusions in this
             report that the Authority mismanaged its voucher program and needs
             to take significant actions to correct its long-standing systemic
             weaknesses.

Comment 9    As stated in recommendation 2B, the Authority must support the
             eligibility of its payments or repay HUD. The Authority must report
             accurate and reliable information to HUD.

             The Authority was not held to a higher standard. HUD required the
             Authority to submit 100 percent of its family records and may
             sanction the Authority if it submits fewer than 95 percent. The 872
             clients that the Authority failed to report to HUD represented about 5
             percent of the clients served by the Authority. We did not
             recommend sanctions; however, if HUD determines that the
             Authority can not correct its weaknesses and appropriately administer
             its voucher program, it may determine that sanctions are warranted.

Comment 10   The Authority acknowledged that it made ineligible payments. The
             Authority’s procedures, recommendation 2A, should include routine
             analysis to identify potentially ineligible payments, and pursuit of
             remedies against anyone that it determines fraudulently received
             assistance.

Comment 11   While the Authority believes that some of the amounts were
             immaterial, HUD required the Authority to expend funds on only
             eligible clients. The Authority did not have written policies during
             the audit period nor did it have a system to identify and correct these
             ineligible payments.

Comment 12   We maintain our position and added an example in the report for
             clarification. The Authority’s incompatible software may have
             contributed to its problems. However, the client files reviewed
             contained documentary evidence of backdated reexaminations, none
             of which were attributable to software incompatibility. We applied
             analytical procedures to the Authority’s data to determine the extent
             of the problem.

Comment 13   We maintain our position that the information requested was essential
             for the Authority to adequately manage its voucher program. The
             Authority attempted to minimize the condition by implying that it had
             the reports and information available, but it was not in the correct
             format. The facts did not support this assertion. For example, wait
             list reports printed on different days showed conflicting dates and
             times that applicants entered the wait list. Because of the
             inconsistency of this information, the Authority compromised the



                                 47
             integrity of its wait list. As another example, significant delays in
             providing basic information resulted because the Authority failed to
             archive its monthly check register reports. Therefore, the Authority
             had to recreate the check registers with considerable effort and
             decreased reliability as discuss in the scope and methodology section.
             The Authority never responded to other requests for information.

Comment 14   Contrary to the Authority’s response, the loss of 30 points was not
             speculation. We included the possible reduction in the SEMAP
             rating to demonstrate the potential effect of the Authority providing
             insufficient information to HUD.




                                48
